Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 





          SOUTH CAROLINA PAID 

            HOSPITALS FOR SOME 

INPATIENT HOSPITAL SERVICES 

           THAT MEDICARE PAID 




  Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                           Public.Affairs@oig.hhs.gov. 





                                                    LoriS. Pilcher
                                               Regional Inspector General

                                                      February 2014
                                                      A-04-11-06145
                         Office ofInspector Genertll
                                         https:/ / oig.hhs.gov



The mission of the Offi ce of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable infonnation on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations
The Office oflnvestigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts ofOI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         1Votices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters .
                                      EXECUTIVE SUMMARY 


  South Carolina Medicaid overpaid hospitals $1,056,782/or some ofthe same inpatient
  hospital services that Medicare had already paid.

WHY WE DID THIS REVIEW

Medicaid provides health coverage to 8.3 million "dually eligible" low-income seniors and
people with disabilities, who are enrolled in both Medicaid and Medicare. However, Medicaid is
the payer of last resort and should not pay for medical costs when there is another responsible
entity (or program), including Medicare. The Office oflnspector General has consistently
identified Medicaid overpayment issues. In this audit, we focused on Medicaid overpayments
when Medicare and Medicaid both pay for the same services. We are conducting this audit in
multiple States.

Our objective was to determine whether the South Carolina Department of Health and Human
Services (State agency) overpaid Medicaid inpatient claims to hospitals that received Medicare
payments for the same services.

BACKGROUND

Federal and State Governments jointly fund the Medicaid program. The Medicaid program is
intended to be the payer of last resort; that is, all third party insurance carriers, including
Medicare, must meet their legal obligation to pay claims before the Medicaid program pays for
the care of an individual on Medicaid (section 1902(a)(25) ofthe Social Security Act).

Overpayments occur when the State agency inappropriately pays claims that a third party is
responsible for paying. In South Carolina, the State agency administers the Medicaid program.

WHAT WE FOUND

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 1,136 overpayments ($2,261,959 Federal
share) that we reviewed, the hospitals had refunded 532 prior to our audit. However, the
hospitals had not refunded the remaining 604. The overpayments were due to the State's lack of
system edits to detect erroneous or incorrect hospital entries in their payment system. As a
result, the State agency made Medicaid overpayments to hospitals totaling $1,056,782 ($797,680
Federal share).

WHAT WE RECOMM END

We recommend that the State agency:

    •   recover $1,056,782 in Medicaid overpayments,

    •   refund $797,680 to the Federal Government, and


Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)
    •   correct the system errors that allowed the overpayments to occur.

STATE AGENCY COMMENTS AND OUR RESPONSE

In its comments on our draft report, the State agency concurred with our first and second
recommendations and described actions that it had taken or planned to take in regard to these
recommendations. However, the State agency did not concur with our third recommendation
because it plans to replace its Medicaid Management Information System (MMIS).
Nevertheless, the State agency will review the controls currently within its MMIS to ensure that
edits are in place to prevent these types of overpayments. The State agency will also continue to
use post-payment audits and other means of monitoring inpatient hospital claims for duplicate
Medicare-Medicaid payments.

After reviewing the State agency's comments, we believe that its Medicaid payment system
should identify and correct duplicate and erroneous hospital information. We agree with the
State agency ' s approaches to both reviewing the controls of its MMIS to ensure that erroneous
payments do not recur until it can update its MMIS and continuing the use of post-payment
audits, and other inpatient hospital monitoring, to identify duplicate Medicare-Medicaid
payments.




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-1 1-06145)                      ii
                                                     TABLE OF CONTENTS 



INTRODUCTION ........................................................................................................................ 1 


           Why We Did This Review ................................................................................................ 1 


           Objective ........................................................................................................................... 1 


           Background ....................................................................................................................... 1 

                 The Medicaid Progrrun ......................................................................................... 1 

                 Medicaid Payer of Last Resort ............................................................................. 1 

                 South Carolina Department of Health and Human Services ................................ 2 


           How We Conducted This Review .................................................................................... 2 


FINDINGS .................................................................................................................................... 2 


           Medicaid Overpayments Not Recovered .......................................................................... 2 


           Why Did Overpayments Occur? ....................................................................................... 3 


RECOMMENDATIONS .............................................................................................................. 4 


STATE AGENCY COMMENTS AND 

 OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... .4 



APPENDIXES

           A: Audit Scope and Methodology ................................................................................... 5 


           B: Federal and State Requirements .................................................................................. 7 


           C: State Agency Comments ............................................................................................. 8 





Medicaid Overpaid for Some Medicare Services in South Carolina (A-04-11 -06145)                                                                   iii
                                            INTRODUCTION 


WHY WE DID THIS REVIEW 


Medicaid provides health coverage to 8.3 million "dually eligible" low-income seniors and
people with disabilities, who are enrolled in both Medicaid and Medicare. However, Medicaid is
the payer of last resort and should not pay for medical costs when there is another responsible
entity (or program), including Medicare. The Office of Inspector General has consistently
identified Medicaid overpayment issues. In this audit, we focused on Medicaid overpayments
when Medicare and Medicaid both pay for the same services. We are conducting this audit in
multiple States .

OBJECTIVE

Our objective was to determine whether the South Carolina Department of Health and Human
Services (State agency) overpaid Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The amount that the Federal Government reimburses to State Medicaid agencies is commonly
known as Federal financial participation, or Federal share. It is a specified percentage of
Medicaid expenditures determined by the Federal medical assistance percentage, which varies
based on a State's relative per capita income.

Medicaid Payer of Last Resort

The Medicaid program is intended to be the payer of last resort; that is, all third party insurance
carriers, including Medicare, must meet their legal obligation to pay claims before the Medicaid
program pays for the care of an individual on Medicaid (section 1902(a)(25) of the Social
Security Act (the Act)). Overpayments occur when the State agency inappropriately pays claims
that a third party is responsible for paying. When both Medicare and Medicaid coverage apply,
Medicare is the primary payer.

The State agency must recover Medicaid payments when Medicaid pays for services for an
individual who has Medicare as the primary payer. This payment constitutes an overpayment.




Medicaid Overpaid for Some Medicare Services in South Carolina (A-04-11 -06145)                   I
South Carolina Department of Health and Human Services

In South Carolina, the State agency administers the Medicaid program. Within the State agency,
the Bureau of Compliance and Performance Review is responsible for identifying Medicaid
overpayments. As part of the bureau, the Division of Program Integrity conducts post-payment
reviews directed towards reclaiming Medicaid funds that have been wasted through inaccurate,
excessive, or duplicate payments.

HOW WE CONDUCTED THIS REVIEW

We reviewed 1,136 Medicaid overpayments for inpatient services that Medicare also paid,
totaling $2,954,446 ($2,261,959 Federal share), submitted by 52 hospitals in South Carolina for
the 3-year period from January 1, 2007, through December 31, 2009. Our audit population did
not include claims in which Medicaid paid for only the deductible, only the coinsurance, or both,
for the inpatient stay.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 1,136 overpayments ($2,261,959 Federal
share) that we reviewed, the hospitals had refunded 532 prior to our audit. However, the
hospitals had not refunded the remaining 604. The overpayments occurred because of the State
agency's lack of system edits to detect erroneous or incorrect hospital entries in its payment
system. The State agency made its payments on the basis of data it received from the hospitals,
which was not always accurate. As a result, the State agency made Medicaid overpayments to
hospitals totaling $1,056,782 ($797,680 Federal share).

For details on the Federal and State requirements related to the Medicaid overpayments, see
Appendix B.

MEDICAID OVERPAYMENTS NOT RECOVERED

The Act provides that the State should refund the Federal portion of any overpayment
(§ 1903(d)(2)(A)). An overpayment is the amount paid by a Medicaid agency to a provider that
exceeds the amount that is allowable for services furnished under the State plan (42 CFR
§ 433.304).




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                    2
The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 1,136 overpayments we reviewed, the
hospitals refunded 532 prior to the start of our audit. However, the hospitals had not refunded
the remaining 604 Medicaid overpayments to CMS totaling $1,056,782 ($797,680 Federal
share). Of the 604 overpayments, the State paid hospitals:

    • 	 an amount greater than the deductible and/or coinsurance for 101 overpayments totaling
        $383,335,

    • 	 a deductible amount when it was not due for 311 overpayments totaling $316,614,

    • 	 an amount other than a deductible and/or coinsurance when it was not due for 70 

        overpayments totaling $228,159, and 


    • 	 double the deductible amount when the deductible was due for 122 overpayments totaling
        $128,674.


                                            System Errors
                       • 604 Medicaid Overpayments, $1,056,782 ($797,680 Federal Share)

                       $383,335




                    Paid Amount>      No Payment Due,    No Payment Due,    Deductible Due, Paid
                      Ded/Coins        Paid Deductible    Paid Amt "# Ded         Double


WHY DID OVERPAYMENTS OCCUR?

The overpayments occurred because the State agency's payment system did not have edits in
place to detect erroneous or incorrect hospital entries. The State agency based its payments on
data from the hospitals, which was often inaccurate.

When a Medicare payment for the same service was present, the hospitals were required to enter
the Medicare information into specified fields on the claims form. The State agency's payment
system would then pay the lower of the difference between the Medicaid-allowed amount and
the Medicare payment, or the sum of the Medicare coinsurance, blood deductible, and
deductible. Because the hospitals were not required to submit a copy of the Medicare



Medicaid Overpaid for Some Medicare Services in South Carolina (A-04-1 1-06145)                    3
Explanation of Medical Benefits (EOMB) with the Medicaid claims submission, the Medicaid
payments were based on the hospital's entries on the claims form for any Medicare related
information.

The State agency did not properly monitor the Medicaid payments when it placed full reliance on
the hospital entries on the claims form without automated edits or other procedures to validate
their accuracy.

RECOMMENDATIONS

We recommend that the State agency:

    •   recover $1,056,782 in Medicaid overpayments,

    •   refund $797,680 to the Federal Government, and

    •   correct the system errors that allowed the overpayments to occur.

        STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL 

                             RESPONSE 


In its comments on our draft report, the State agency concurred with our first and second
recommendations and described actions that it had taken or planned to take in regard to these
recommendations. However, the State agency did not concur with our third recommendation
because it plans to replace its Medicaid Management Information System (MMIS).
Nevertheless, the State agency will review the controls currently within its MMIS to ensure that
edits are in place to prevent these types of overpayments. The State agency will also continue to
use post-payment audits and other means of monitoring inpatient hospital claims for duplicate
Medicare-Medicaid payments.

After reviewing the State agency's comments, we believe that its Medicaid payment system
should identify and correct duplicate and erroneous hospital information. We agree with the
State agency's approaches to both reviewing the controls of its MMIS to ensure that erroneous
payments do not recur until it can update its MMIS and continuing the use of post-payment
audits, and other inpatient hospital monitoring, to identify duplicate Medicare-Medicaid
payments.

The State agency comments are included in their entirety as Appendix C.




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                  4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


Our review covered a population of 1,136 Medicaid overpayments for inpatient services that
Medicare also paid, totaling $2,954,446 ($2,261 ,959 Federal share), submitted by 52 hospitals in
South Carolina for the period from January 1, 2007, through December 31 , 2009. Our audit
population did not include claims in which Medicaid paid for only the deductible, only the
coinsurance, or both, for the inpatient stay.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Instead, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency in Columbia, South Carolina, and at various
hospitals throughout South Carolina.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal and State requirements and the South Carolina State 

        Medicaid plan, 


    •    discussed the Medicaid overpayment process with State agency officials, 


    •   obtained data for paid Medicaid and Medicare inpatient claims, 


    • 	 performed a data match of the Medicaid and Medicare inpatient claims for overpayments
        for the same beneficiary for the same date of service,

    • 	 reviewed the matching 1,136 overpayments that had Medicare and Medicaid inpatient
        claims for the same beneficiary for the same date of service,

    • 	 obtained documentation from providers and the State agency to support repayment of
        Medicaid payments,

    • 	 provided State agency officials with a listing of the overpayments for validation,

    • 	 calculated the overpayment amount (Federal share), and

    • 	 discussed our results with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                    5
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objectives.




Medicaid Overpaid for Some Medicare Services in South Carolina (A-04-11 -06145)                   6
                  APPENDIX B: FEDERAL AND STATE REQUIREMENTS 


FEDERAL REQUIREMENTS

The State or local agency administering a State plan for medical assistance will take all
reasonable measures to ascertain the legal liability of third parties to pay for care and services
available under the plan. By law, the Medicaid program is intended to be the payer of last resort;
that is, all other available third party resources must meet their legal obligation to pay claims
before the Medicaid program pays for the care of an individual eligible for Medicaid (Section
1902(a)(25) of the Act) . This means that all third party insurance carriers, including Medicare,
must pay before Medicaid processes the claim.

Federal regulations (42 CFR § 433.304) define an overpayment as"... the amount paid by a
Medicaid agency to a provider which is in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act." In instances when Medicaid should not have paid because Medicare was the
primary payer, the State agency should recover the Medicaid payments, which are considered
overpayments.

Federal regulations, 42 CFR § 433.312(a), also require that the State must refund the Federal
share of unallowable overpayments made to Medicaid providers.

STATE REQUIREMENTS

The State agency's Hospital Services Provider Manual, section 2, states Medicaid is the "payer
of last resort." In addition, section 1, states a provider who has been paid by Medicaid and
subsequently receives reimbursement from a third party, including Medicare, must repay to the
State agency either the full amount paid by Medicaid or the full amount paid by the third party,
whichever is less.

In the State agency's Hospital Services Provider Manual, section 3, a hospital must ti le a claim
with Medicare first (when known). The hospital must enter the information from the Medicare
EOMB in fields 50, 54, and 60, as well as amounts for value codes 09, 11, A1, B1 , C1 , A2, B2,
C2, and 38, if applicable. These fields provide the Medicare information needed for the State
agency to make a Medicaid payment. It further states that claims involving Medicare and
Medicaid will be paid the lower of ( 1) the difference between the Medicaid-allowed amount and
the Medicare payment, or (2) the sum of the Medicare coinsurance, blood deductible, and
deductible.




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                      7
                          APPENDIX C: STATE AGENCY COMMENTS 



                                                                                  rrJd- fot   '.r..   t':'-\ NA                            •

                                                                                  Healthy Connections ~·
                                                                                                                         MED ICAID , .

                                                                                                                   Nikki Haley GOVERNOR
                                                                                                                  Anthony Keck r RECTOR
                                                                                                      P.O. Box 8206 > Columbia, SC 29202
                                                                                                                        www.scdhhs.sov


                                                      January 23,2014



             Lori S. Pilcher
             Regional Inspector General
             Office of Audit Services, Region IV
             61 Forsyth Street, SW, Suite 3t41
             Atlanta, Georgia 30303

             RE: OIG Report Number: A-04-11-06145
             Dear Ms. Pilcher:
             Thank you for the opportunity to respond to the Office of Inspector General (OIG) draft
             report titled South Carolina Paid Hospitals for Some Inpatient Hospital Services That
             Medicare Paid, involving duplicate Medicaid payments to inpatient hospitals where
             Medicare had already made a payment on the claim. The South Carolina Department of
             Health and Human Services (SCDHHS) agrees with your determination of the
             overpayments caused by this situation; however, since the completion of your audit work,
             we have identified additional refunds which have reduced the amount of the overpayments
             still outstanding. In addition, we do not agree that the overpayments were "due to the
             State's lack of system edits to detect erroneous or incorrect hospital entries in their
             payment system."

            This audit was initiated by the OIG in September 2011. After assisting the OIG in validating
            the information in a sample of the claims under review, we were provided a listing of
            claims with dates of service from January 1, 2007, through December 31, 2009, where the
            OIG had identified Medicare as the primary payer, yet had also identified a payment made
            for the same claim by the South Carolina Medicaid program. Of the 1,136 claims with
            duplicate Medicare - Medicaid payments, we found that hospitals had refunded the
            overpayment for 532 claims prior to the OIG's audit. The majority of these refunds were
            the result of a project we initiated with the South Carolina Recovery Audit Contractor
            (RAC), to identify and recover duplicate Medicaid payments for patients with Medicare
            andfor commercial health insurance. The rest of the refunds were the result of SCDHHS's
            "retro-recovery" processes and credit balance audits that are managed by the agency's
            Third Party Liability (TPL) contractor. It should be noted that the Medicaid data extracts
            used by the OIG do not show refunds from providers that occur after claim payment is
            made. SCDHHS worked with the OIG to identify any prior refunds from providers in our
            audit records from the RAC and the agency's TPL contractor. Since the conclusion of the




                             South carolina Department of Health and Human Services   V         Better care. Better value. Better health.




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                                                                 8
             Lori S. Pilcher
             January 23, 2014
             Page2


             DIG's audit work, we have continued to research claim-level history to make sure we have
             accounted for all the refunds for these overpayments.
             The recommendations from the draft report, and our "statements of concurrence or non­
             concurrence" for each one, are as follows:
             Recommendation #1:        The State agency should recover $1,056,782 in Medicaid
             overpayments.
             We concur with that the State should recover the $1,056,782 in Medicaid overpayments;
             however, some portion of this amount has already been recovered. Since the discovery of
             the 532 claim refunds, we have identified another 88 claims that had already been
             refunded by inpatient hospital providers. We were able to identify these provider
             repayments within the Medicaid retro-recovery system operated by our TPL contractor.
             According to our calculations, therefore, the final overpayment amount for the claims in
             question is $860,277.58. However, in order to confirm this, we also will have to obtain
             detailed information from the OIG audit staff regarding the original estimated overpayment
             amounts. We also will provide detailed spreadsheets to the audit staff to document our
             findings.
             Recommendation #2: The State agency should refund $797,680 to the Federal Government
             We concur that the State should refund the federal portion $797,680 of the identified
             overpayments to the Federal government; again, some portion of this amount has already
             been recovered. Based on our revised estimate of the overpayments in question, the
             federal share (using 75% of the total) is estimated to be $645,208.19.
             Recommendation #3: The State agency should correct the system errors that allowed the
             overpayments to occur.
            We do not concur with recommendation #3. We have had policy and system edits in place
            since 2006 to provide that the SCDHHS payment for dually eligible recipients is equal to the
            allowed amount minus the Medicare payment or the sum of the Co-insurance, Deductible,
            and Blood Deductible, whichever is less.       We cannot identify any "system errors" that
            allowed the overpayments to occur. Based on our review, we find that many if not most of
            the overpayments were caused by erroneous and duplicate information submitted by
            providers on the claim. The report states that the agency did not require providers to
            submit a copy of the Medicare EOMB and therefore did not "properly monitor the Medicaid
            payments when it placed full reliance on the hospital entries on the claims form without
            automated edits or other procedures to validate their accuracy." Such a broad statement is
            not accurate, since there are system edits that do ensure proper payment of claims.




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                             9
             Lori S. Pilcher
             January 23, 2014
             Page3


             While we do not require the submission of EOMBs, to match each inpatient hospital claim
             for a dually-eligible beneficiary against a Medicare EOMB form would be an extremely
             cumbersome, manual process. We do not think this is the intent of the DIG's
             recommendation in this case.
             Regardless, we will review the controls currently within our MMIS to ensure wherever
             possible that any overpayments caused by a lack of appropriate edits will not re-occur.
             However, SCDHHS is in the beginning stages of developing a replacement MMIS, and major
             system changes to our 30 year old legacy system may not be feasible at this time. SCDHHS
             also will continue to use post-payments audits conducted by the RAC as well as other
             means to monitor inpatient hospital claims for duplicate Medicare-Medicaid payments.
             Once the final amount of the overpayment is established, we will immediately begin the
             process to recover these funds from the hospitals involved, and will use the assistance of
             the South Carolina RAC to help verify and collect these overpayments. We will comply with
             federal requirements to properly remit the federal share to CMS based on the federal
             financial participation rate applicable during the dates of service for the claims.
             Again, thank you the opportunity to respond to the draft audit report I look forward to
             working with the OIG Office of Audit Services staff to finalize the results of this audit.
             Please do not hesitate to call me at 803-898-1050 if you have any questions at this time.
                                                      Sincerely,

                                                         :If~-_.- C · ~ ~
                                                      Kathleen C. Snider, Bureau Chief
                                                      Compliance and Performance Review


             KCS:m
             cc: 	   Byron Roberts, General Counsel, SCDHHS
                     John Supra, CIO, SCDHHS




Medicaid Overpaidfor Some Medicare Services in South Carolina (A-04-11 -06145)                            10
